                                                              O FFICE OF A UDIT S ERVICES , R EGION V
                                                                  233 N ORTH M ICHIGAN , S UITE 1360
                                                                                 C HICAGO , IL 60601
May 3, 2012

Report Number: A-05-10-00042

Mr. Rick Worstell
Chief Executive Officer
Marquis Mobility, Inc.
4051 Whipple Avenue NW, Suite E
Canton, OH 44718

Dear Mr. Worstell:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Power Mobility Devices Supplied by Marquis
Mobility, Inc. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Lynn Barker, Audit Manager, at (317) 226-7833, extension 21, or through email at
Lynn.Barker@oig.hhs.gov. Please refer to report number A-05-10-00042 in all correspondence.

                                             Sincerely,



                                             /Sheri L. Fulcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Rick Worstell




Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 355
Kansas City, Missouri 64106
ROkcmORA@cms.hhs.gov
Department of Health and Human Services
            OFFICE OF 

       INSPECTOR GENERAL 





  REVIEW OF POWER MOBILITY

     DEVICES SUPPLIED BY 

   MARQUIS MOBILITY, INC. 





                       Daniel R. Levinson

                        Inspector General 


                           May 2012

                         A-05-10-00042 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                   EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance coverage to people aged 65 and over and those who are disabled or have
permanent kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers
the Medicare program.

Pursuant to sections 1832(a)(1) and 1861(n) of the Act, Medicare Part B provides for the
coverage of durable medical equipment, prosthetics, orthotics, and supplies (DMEPOS). CMS
contracts with four durable medical equipment Medicare administrative contractors (DME
MAC) to process and pay Part B claims for DMEPOS. Pursuant to section 1862(a)(1)(A) of the
Act, no payment may be made under Part B for any expenses incurred for items that are not
reasonable and necessary for the diagnosis or treatment of illness or injury or to improve the
functioning of a malformed body member.

Medicare Part B provides for the coverage of power mobility devices (PMD), such as power
wheelchairs and power-operated vehicles (which are commonly referred to as scooters).
Pursuant to 42 CFR § 410.38(c)(2), the physician or treating practitioner must (1) conduct a face-
to-face examination of the beneficiary for the purpose of evaluating and treating the beneficiary
for his or her medical condition and determining the medical necessity for the PMD as part of an
appropriate overall treatment plan, (2) write a prescription (written order) that is provided to the
beneficiary or the supplier and is received by the supplier within 45 days after the face-to-face
examination, and (3) provide documentation to support the medical necessity of the PMD
(including pertinent parts of the beneficiary’s medical record) to the supplier within 45 days of
the face-to-face examination.

Pursuant to 42 CFR § 410.38(c)(1), which refers to section 1861(r)(1) of the Act, a physician is a
doctor of medicine who is legally authorized to practice medicine and surgery by the State in
which he or she performs such function or action. Section 410.38(c)(2)(iii) states that supporting
documentation for a PMD includes pertinent parts of the beneficiary’s medical record, e.g.,
history, physical examination, diagnostic tests, summary of findings, diagnoses, treatment plans,
and/or other information as may be appropriate, that supports the medical necessity of the PMD.
The Medicare Program Integrity Manual (the Manual) states that the supplier should obtain as
much documentation from the patient’s medical record as the supplier determines is needed to
ensure that the coverage criterion for an item has been met.

Marquis Mobility, Inc. (Marquis Mobility) is a durable medical equipment supplier in Canton,
Ohio. From June 6, 2006, through June 30, 2009, Medicare paid Marquis Mobility $3,910,392
for 1,140 PMDs supplied during that period.

OBJECTIVE

Our objective was to determine whether Marquis Mobility claimed Federal reimbursement for
PMDs in accordance with Medicare requirements.



                                                 i
SUMMARY OF FINDINGS

Marquis Mobility did not always claim Federal reimbursement for PMDs in accordance with
Medicare requirements. From June 6, 2006, through June 30, 2009, we estimated that Marquis
Mobility received Federal reimbursement for PMD claims totaling $680,024 that were not in
accordance with Federal requirements.

Of the 200 randomly sampled claims, 157 claims met Medicare requirements, but 43 claims did
not. Specifically, Marquis Mobility did not provide:

   	 adequate documentation to support the medical necessity of PMDs for 26 claims,

   	 all required documentation for 9 claims, and

   	 properly completed physician orders for 8 claims.

Marquis Mobility did not adequately develop and implement internal controls to ensure that it
correctly obtained Medicare reimbursement. These controls did not ensure that PMDs provided
to beneficiaries were medically necessary and that physician orders were in accordance with
Medicare requirements.

RECOMMENDATIONS

We recommend that Marquis Mobility:

   	 refund to the Federal Government $680,024 in unallowable payments for PMDs and

   	 enhance controls to ensure that claims for PMDs are in accordance with Medicare
      requirements.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Marquis Mobility disagreed with our findings but did
not address our recommendations. Marquis Mobility stated that recovery of overpayments for
the claims in question is barred by Medicare recovery and reopening rules and are not subject to
recoupment. Marquis Mobility also made comments disputing the lack of medical necessity and
documentation related to specific claims in our sample. Marquis Mobility’s comments are
included in Appendix C. We redacted personally identifiable information in the comments.

After reviewing Marquis Mobility’s comments, we maintain that our findings and
recommendations are valid, including that the overpayments should be recovered to the extent
allowable under law.




                                               ii
                                                       TABLE OF CONTENTS 

                                                                                                                                   Page 


INTRODUCTION......................................................................................................................1 


          BACKGROUND .............................................................................................................1         

              Medicare Program................................................................................................1             

              Federal Requirements ..........................................................................................1              

              Marquis Mobility, Inc. .........................................................................................2             

              National Government Services, Inc. ....................................................................2                      


          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2 

               Objective ..............................................................................................................2    

               Scope....................................................................................................................2   

               Methodology ........................................................................................................3        


FINDINGS AND RECOMMENDATIONS ............................................................................4 


          INADEQUATE DOCUMENTATION SUPPORTING 

               MEDICAL NECESSITY .....................................................................................4                     


          MISSING DOCUMENTATION .....................................................................................5                      


          IMPROPERLY COMPLETED PHYSICIAN ORDERS ................................................5 


          ESTIMATE OF UNALLOWABLE PAYMENTS .........................................................6 


          INTERNAL CONTROLS NOT IMPLEMENTED.........................................................6 


          RECOMMENDATIONS .................................................................................................6                


          AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE...6 


APPENDIXES

          A: SAMPLING METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: AUDITEE COMMENTS




                                                                   iii
                                               INTRODUCTION 


BACKGROUND

Medicare Program

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance coverage to people aged 65 and over and those who are disabled or have
permanent kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers
the Medicare program.

Pursuant to sections 1832(a)(1) and 1861(n) of the Act, Medicare Part B provides for the coverage
of durable medical equipment, prosthetics, orthotics, and supplies (DMEPOS). CMS contracts
with four durable medical equipment Medicare administrative contractors (DME MAC)1 to
process and pay Medicare Part B claims for DMEPOS. Pursuant to section 1862(a)(1)(A) of the
Act, no payment may be made under Part B for any expenses incurred for items that are not
reasonable and necessary for the diagnosis or treatment of illness or injury or to improve the
functioning of a malformed body member.

Federal Requirements

Medicare Part B provides for the coverage of power mobility devices (PMD), such as power
wheelchairs and power-operated vehicles (which are commonly referred to as scooters).
Pursuant to 42 CFR § 410.38(c)(2), the physician or treating practitioner must (1) conduct a face-
to-face examination of the beneficiary for the purpose of evaluating and treating the beneficiary
for his or her medical condition and determining the medical necessity for the PMD as part of an
appropriate overall treatment plan, (2) write a prescription (written order) that is provided to the
beneficiary or the supplier and is received by the supplier within 45 days after the face-to-face
examination, and (3) provide documentation to support medical necessity of the PMD (including
pertinent parts of the beneficiary’s medical record) to the supplier within 45 days of the face-to-
face examination.2

Medicare contractors develop Local Coverage Determinations (LCD) for some covered
DMEPOS, including PMDs. LCDs specify under what clinical circumstances the DMEPOS


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173
(Dec. 8, 2003), required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare
administrative contractors (MAC) between October 2005 and October 2011. Most, but not all, of the MACs are
fully operational; for jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers
continue to process claims. For purposes of this report, the term “Medicare contractor” means the fiscal
intermediary, carrier, or MAC, whichever is applicable.
2
  Pursuant to 42 CFR § 410.38(c)(3), beneficiaries discharged from a hospital do not need to receive a separate face-
to-face examination as long as the physician or treating practitioner who performed the face-to-face examination of
the beneficiary in the hospital issues a PMD prescription and supporting documentation that is received by the
supplier within 45 days after the date of discharge. Accessories for PMDs may be ordered by the physician or
treating practitioner without conducting a face-to-face examination of the beneficiary.



                                                           1

item is considered reasonable and necessary. For a PMD to be covered, the LCDs3 state that
basic coverage criteria must be met. Specifically, documentation must demonstrate that the
patient has (1) a mobility limitation that significantly impairs the ability to participate in one or
more mobility-related activities of daily living (MRADL), (2) a mobility limitation that cannot
be sufficiently and safely resolved by the use of an appropriately fitted cane or walker, and
(3) insufficient upper extremity function to self-propel an optimally configured manual
wheelchair in the home to perform MRADL during a typical day.

Marquis Mobility, Inc.

Marquis Mobility, Inc. (Marquis Mobility) is a durable medical equipment supplier in Canton,
Ohio, that sells and services PMDs. Marquis Mobility has sales representatives in approximately
eight States, including Illinois, Indiana, Iowa, Kentucky, Michigan, Ohio, Pennsylvania, and
West Virginia.

National Government Services, Inc.

National Government Services, Inc. (NGS) has been the Medicare administrative contractor for
Jurisdiction B since July 1, 2006. NGS’s main office is in Indianapolis, Indiana, and it processes
claims from durable medical equipment suppliers in Illinois, Indiana, Kentucky, Michigan,
Minnesota, Ohio, and Wisconsin.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Marquis Mobility claimed Federal reimbursement for
PMDs in accordance with Medicare requirements.

Scope

From June 6, 2006, through June 30, 2009, Medicare paid Marquis Mobility $3,910,392 for
1,140 PMDs supplied during that period. Our review covered the associated claims.

We did not review the overall internal control structure of Marquis Mobility. Rather, we limited
our review of internal controls to those controls that were significant to the objective of our
audit.

We performed fieldwork from March 2010 through March 2011 at Marquis Mobility as well as at
prescribing physicians’ offices in 11 States (Iowa, Illinois, Indiana, Kentucky, Michigan, New
Jersey, Ohio, Pennsylvania, South Carolina, Tennessee, and West Virginia) and the beneficiaries’
residences in 10 States (Colorado, Iowa, Illinois, Kentucky, Michigan, North Carolina, New
Jersey, Ohio, Pennsylvania, and South Carolina).


3
 Medicare’s four DME MACs have adopted the same LCD for PMDs. The relevant LCD policy statement numbers
are L21271, L27239, L23613, and L23598.


                                                   2

Methodology

To accomplish our objective, we:

    	 reviewed applicable Federal laws, regulations, and guidance;

    	 used CMS’s National Claims History data to identify the 1,140 claims for which Marquis
       Mobility received Medicare payments from June 6, 2006, through June 30, 2009, for
       PMDs supplied during that period;

    	 selected a stratified random sample of 200 PMD claims totaling $684,661: 100 from the
       678 claims associated with beneficiaries who resided in Ohio and 100 from the 462
       claims associated with beneficiaries who resided outside Ohio (Appendix A);

    	 reviewed Marquis Mobility’s policies and procedures and interviewed officials to obtain
       an understanding of the company’s Medicare billing processes for PMDs;

    	 interviewed prescribing physicians and beneficiaries to obtain an understanding of the
       prescription process and obtained medical records from the physicians’ offices associated
       with 1964 of the 200 sampled claims;

    	 requested that NGS perform a medical review of documentation supporting PMDs
       provided to beneficiaries associated with 1195 of the 200 sampled claims to determine
       whether medical necessity and coverage requirements were met;

    	 reviewed supporting documentation obtained from Marquis Mobility, the prescribing
       physicians, and beneficiaries to determine whether the 200 sampled claims met Federal
       regulations for Medicare reimbursement of the PMDs; and

    	 based on the results of our stratified sample, estimated the value of unallowable payments
       that Medicare made for PMDs from June 6, 2006, through June 30, 2009 (Appendix B).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




4
  For four sample items, the prescribing physician offices were permanently closed. The audit team was not able to
locate the prescribing physicians or the beneficiaries’ medical records.
5
 The 119 claims included 93 claims for beneficiaries who died during our audit period and 26 claims for medical
necessity. We determined that the remaining 81 sampled claims did not require medical review.



                                                         3

                               FINDINGS AND RECOMMENDATIONS


Marquis Mobility did not always claim Federal reimbursement for PMDs in accordance with
Medicare requirements. Of the 200 sampled claims, 157 claims met Medicare requirements, but
436 claims did not. Specifically, Marquis Mobility did not provide:

        adequate documentation to support the medical necessity of PMDs for 26 claims,

        all required documentation for 9 claims, and

        properly completed physician orders for 8 claims.

From June 6, 2006, through June 30, 2009, we estimated that Medicare reimbursed Marquis
Mobility for PMD claims totaling $680,024 that did not meet Federal requirements.

These errors occurred because Marquis Mobility did not have adequate controls to ensure that it
claimed Federal reimbursement for PMDs in accordance with Medicare requirements.

INADEQUATE DOCUMENTATION SUPPORTING MEDICAL NECESSITY

Pursuant to 42 CFR § 410.38(c)(2)(iii), Medicare Part B pays for a PMD if the physician or
treating practitioner provides supporting documentation, including pertinent parts of the
beneficiary’s medical record (e.g., history, physical examination, diagnostic tests, summary of
findings, diagnoses, treatment plans, and/or other information as may be appropriate) that
supports the medical necessity of the PMD, which is received by the supplier within 45 days
after the face-to-face examination.

The Medicare Program Integrity Manual, Pub. No. 100-08, (the Manual), chapter 5, section 5.8,
states that the supplier should obtain as much documentation from the patient’s medical record as
the supplier determines is needed to ensure that the coverage criterion for an item has been met.7
Of the 119 claims reviewed for medical necessity, 26 claims were medically unnecessary
because supporting documentation did not meet the basic coverage criteria for medical necessity.
For example, several claims did not include documentation that supported an initial or face-to-
face exam with the physician. In addition, other claims lacked supporting documentation of
medical records, including physical therapist evaluations and progress notes to support medical
necessity. Also, Marquis Mobility submitted documentation stating that the beneficiary could
perform MRADLs, which meant that the PMD was medically unnecessary. For the 26 claims,
Marquis Mobility received $96,317 in unallowable Medicare payments.



6
 In addition to the 26 medical necessity claims, NGS reviewed 13 of the 17 claims during its medical review. NGS
and its medical director identified the remaining 4 claims based on their determination that these claims had similar
problems to the 13 claims in the medical review.
7
 Prior to Transmittal #138, which took effect on October 1, 2006, this requirement was found in section 5.2.1 of the
manual.


                                                          4

MISSING DOCUMENTATION

Pursuant to the relevant LCDs,8 effective November 15, 2006, once the supplier has determined
the specific PMD that is appropriate for the patient based on the physician’s order, the supplier
must prepare a separate written document (termed a detailed product description) that lists the
wheelchair base and all options and accessories that will be separately billed.

For nine sampled claims totaling $28,806, Marquis Mobility did not submit a separate detailed
product description as required by guidance.

IMPROPERLY COMPLETED PHYSICIAN ORDERS

Pursuant to 42 CFR § 410.38(c)(1), to be valid, a written order must be completed by the
physician or treating practitioner who performed the face-to-face examination and include the
beneficiary’s name, the date of the face-to-face examination, the diagnoses and conditions that
the PMD is expected to modify, a description of the item, the length of need, the physician or
treating practitioner’s signature, and the date the prescription was written. In addition, 42 CFR
§ 410.38(c)(4), states that the supplier must receive the order within 45 days after completion of
the face-to-face examination.

Chapter 5, section 5.2.4, of the Manual states a new physician order is required when there is a
change in the order.9

Medicare reimbursed Marquis Mobility $31,894 for eight claims that did not meet Medicare
requirements because the physician orders were not correctly completed. Specifically:

     	 For four sampled claims totaling $18,139, the physicians did not complete a new order. 10

     	 For three sampled claims totaling $10,536, the physicians did not include the date that the
        face-to-face evaluations were completed.

     	 For one sample totaling $3,219, the physician signed and dated the order before 

        completing the face-to-face evaluation. 




8
 The LCD policy statement numbers are L21271, L27239, L23613, and L23598. We only questioned samples with
dates of service after Nov. 15, 2006, for which both the physician’s order and the detailed product description
appeared on a single form.
9
  Prior to Transmittal #138, which took effect on October 1, 2006, this requirement was found in Section 5.1.1.3 of
the manual.
10
  According to the MAC medical directors, MACs generally allow suppliers to follow section 5.3.1 of the Manual if
a change has been made to the written physician order, even though the provision applies specifically to a Certificate
of Medical Necessity (CMN). The provision states that if a change is made to any section of a CMN after the
physician has signed the CMN, the physician must line through the error, initial and date the correction (or the
supplier may choose to have the physician complete a new CMN). We note that in the four sampled claims, the
physicians did not initial and date changes to the order.


                                                          5

ESTIMATE OF UNALLOWABLE PAYMENTS

Of the 200 PMD claims sampled, 43 claims totaling $157,017 were not in compliance with
Medicare requirements. Based on our sample results, we estimated that Marquis Mobility
received Federal reimbursement for PMD claims totaling $680,024 that were not in accordance
with Federal requirements. The details of our sample results and estimates are shown in
Appendix B.

INTERNAL CONTROLS NOT IMPLEMENTED

Marquis Mobility’s internal controls were not adequate to ensure that it correctly obtained
Medicare reimbursement. These controls did not ensure that PMDs provided to beneficiaries
were medically necessary and that physician orders were in accordance with Medicare
requirements.

RECOMMENDATIONS

We recommend that Marquis Mobility:

    	 refund to the Federal Government $680,024 in unallowable payments for PMDs and

    	 enhance controls to ensure that claims for PMDs are in accordance with Medicare
       requirements.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Marquis Mobility disagreed with our findings but did
not address our recommendations. Marquis Mobility stated that recovery of overpayments for
the claims in question is barred by Medicare recovery and reopening rules and are not subject to
recoupment. Marquis Mobility also made comments disputing the lack of medical necessity and
documentation related to specific claims in our sample. Marquis Mobility’s comments are
included in Appendix C. We redacted personally identifiable information in the comments.

After reviewing Marquis Mobility’s comments, we maintain that our findings and
recommendations are valid, including that the overpayments should be recovered to the extent
allowable under law.




                                               6

APPENDIXES 

                                                                                      Page 1 of 2


                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consisted of Medicare payments to Marquis Mobility, Inc. (Marquis Mobility),
from June 6, 2006, through June 30, 2009, for power mobility devices (PMD) supplied to
Medicare beneficiaries during that period. Each record represents an individual PMD supplied to
a Medicare beneficiary for which Marquis Mobility received Medicare reimbursement.

SAMPLING FRAME

The advanced audit techniques staff provided a database of all Marquis Mobility PMD claims
that were supplied to Medicare beneficiaries from June 6, 2006, through June 30, 2009. The
frame was limited to PMD claims that had a reimbursement amount greater than zero. The
frame did not contain PMD accessory or rental claims.

The sampling frame was an MS Access file containing 1,140 PMD claims with total Medicare
reimbursement of $3,910,392. We sequentially numbered the records in the database from 1 to
1,140. We then separated the sampling frame into two strata and sequentially numbered again.
Stratum 1 consisted of 678 PMD claims totaling $2,308,865 for which the Medicare beneficiary
resided in Ohio. Stratum 2 consisted of 462 PMD claims totaling $1,601,527 for which the
Medicare beneficiary resided outside Ohio.

SAMPLE UNIT

The sample unit was a claim for a PMD supplied to a Medicare beneficiary for which Marquis
Mobility received Medicare reimbursement.

SAMPLE DESIGN

We used a stratified random sample.

SAMPLE SIZE

We selected 100 Medicare PMD claims from each stratum for a total of 200 claims.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services (OAS), statistical software to
generate the random numbers for each stratum.

METHOD OF SELECTING SAMPLE ITEMS

We sequentially numbered the sample units in each stratum. After generating 100 random
numbers for each stratum, we selected the corresponding frame items.
                                                                                   Page 2 of 2


ESTIMATION METHODOLOGY

We used the OAS statistical software to estimate the total amount of unallowable PMD claims.
               APPENDIX B: SAMPLE RESULTS AND ESTIMATES


                                       Sample Results


                                                             Number of    Value of PMD
                                                            PMD Claims    Claims Not in
                                                                Not in     Accordance
                                                             Accordance       With
          Frame       Value of       Sample     Value of    With Medicare   Medicare
Stratum    Size        Frame          Size      Sample      Requirements Requirements
        1    678      $2,308,865         100    $341,715               17       $64,408
        2    462       1,601,527         100     342,946               26         92,609
    Total 1,140       $3,910,392         200    $684,661               43      $157,017


                             Estimates of Medicare Claims Not 

                        in Accordance With Medicare Requirements


                   (Limits Calculated for a 90-percent Confidence Interval)

                                                     Total Unallowable
                                Overall               Federal Share
                     Point estimate                           $864,541
                     Lower limit                               680,024
                     Upper limit                             1,049,059
                                                                                                                      Page 1 of28
                                 APPENDIX C: AUDITEE COMMENTS
                                                      SNR Denton us lLP               Gadi Weinreicn
 SNR DENTON                                           1301 K Street;NW
                                                      Suite 600, East Tower
                                                                                      Pmtner
                                                                                      gadl. weinreich@snrdenton.com
                                                      Washington, DC 20005-3364 USA   o  "'1 '2024089166
                                                                                      T '1202408 6400
                                                                                      I' +1202408639&
                                                                                      snrtienlOll.com




November 30, 2011


By Regular and Electronic Mail

Sheri L. Fulcher
Regional Inspector General for Audit Services
U.S. Department of Health and Human Services
OfficeafAudit Services. Region V
233 North Michigan Avenue
Suite 1360
Chicago, Illinois 60601



Re: 	   Response to U.S. Department of Health and Human Services, Office of Inspector
        General. Draft AudifReport No. A-05-10-00042

Dear Ms. Fulcher:

        On behalf of Marquis Mobility. Inc., SNR Denton US LLP respectfully submits this letter and
attachments in response to the draft auditreport prepared by the U.S. Department of Health and Human
Services ("HHS"), Office of Inspector General CHH S-OIG") entitled, "Review of Power Mobility Devices
Supplied By Marquis Mobility, inc.; OIG Draft AuditReport No. A-05-10-00042 (the "Draft Report").

I.      Draft Report

         On October 13,2011, Marquis Mobility, Inc. ("Marquis") received the Draft Report with
instructions to submitwritten comments,ifany, to HHS-OIGwithin 30 days, AtMarquis' request, HHS­
OIGagreed to extend the response deadline to Wednesday, November 30, 2011,

         The Draft Report stated that of the200 randomly se!ect~d Marquis claims for power mobility
devices ("PMOs") thatwere audited byJiHScOIG. 157 met Medicare requirements. Draft Report at it
Conversely. the Draft Report fOllndthat43 claims d id not satisfy Medicare requirements. Draft Report at
4. A list·of the 43 disputed claims is attached at T AS A. Specifically, the Draft Report determined that

            '" 	   Eight PMD .c laimswere not supported by properly completed physician orders;

            .. 	   Nine ·PMD claims were not supported by adequate documentation; and

            .. 	 Twenty-:-six claims were not medically necessary,at least not based on the existing
                 medica! record.

The chart at TAB A is color coded to reflect HHS-OIG's determinations.
                                                                                                                Page 2 of28

                                                                                  Sheri l. Fulcher
                                                                                  November 30. 2011
                                                                                  Page 2



         According to the Draft Report. in the period between June 6, 2006 and June 30. 2009, Medicare
Part B reimbursed Marquis .atotal of$3.91 O.392forPMDs~ Draft Report at 4. Extrapolating from the
forty-three claims found to fall .short of Medicare requirements and applying the results to the total dollar
volume, HHS-OIG recommends that Marquis refund a total amount of$680,024 in estimated unallowable
payments to the federal government. HHS-OIG also recommends that Marquis take steps further to
bolster its internal controls to..ensure more accurate or complete claim submission.

II.      Marquis' Response

         A.      The Claims atlssue are Time Barred

                 1.      The law

        Underthe Medicare Program, contractors are permitted to determine and recoup overpayments .
However, such determination and recoupment is subject to certain, firm limits on the ability to recover
alleged overpayments. such as when the recovery would be against equity and good conscience.' As
noted by the Secretary of HHS (the "Secretary"). Section 1870 of the Social Security Act. 42 u. S.C.
§ 139599 ~providesa framework within which liability for Medicare overpayments is determined and
recoupment of overpayments is pursued. This framework prescribes a certain flow of events 0&.,
decision-making process)that must be followed when pursuing the recoupment of Medicare
overpayments:""

          The Medicare Program cfaim adjudication and decision-making process commences with an
"initial determination" that establishes whether the charges are reasonable and whether payment should
be made.:! Stated differently. the decision of a contractor to make payment toa supplier (~. a supplier
of PMOs) constitutes the ~initial determination" that .stands until revised by the contractor. The initial
determination is binding upon all parties to the claim unless a party (whether the provider or
contractor/adjudicator) reopens and revises the initial determination.4 W ith respect to the 43 c!aims at
issue here, the contractor or aOME Medicare Administrative Contractor("MAC") initially determined that
payment was authorized. Those initial determinations muststand unless mvlsed by the contractors in
compliance with legally mandated time-frames and procedures, as discussed below. To change or alter
the initial determination the Medicare contractormust, by law, "reopen" the.Claim and initial payment
determination, The contractor's revision to the original or initial determination constitutes a reopening.s

          Absent applicatfonof the Medicare "without fault" provisions, Medicare may reopen a claim and
subsequently recoup.a properly-determined overpayment "for any reason" within the first12 months after
initial payment6 This protects .theMedicare program from inadvertenterrors made by its contractors.




      See.42 U.S.C § 139599;42 C,F.R§405.358.
2
      63 Fed, Reg. 14.506 (Mar. 25, 1998) (emphasis added),
:.;
      See 42 C.F.R. § 405.803; 42 C.F.R§40S.920.
<I
      See 42 C.ER. § 405.810- 405.812; 42C.F,R. § 405.841; see also 42 C.F,R.§ 405.928.
5
      42 C,F.R § 405.980(a)(1).
S
      See 42G.FR § 405.841(a); 42 C.ER. §405 . 980(b)(1);~ also MedfcareClaims Processing
      Manual (CMS Pub. 100-04) Ch. 29, §90~3.
                                                                                                             Page 3 of28
                                                                                Sheri L. F u!cher
                                                                                November 30. 2011
                                                                                Page 3




This 12-month timeframedoes not apply here, however, because all initial payment determination dates.
the last of which was in 2008, are well over one year at this point in time.

         Claims that are more than one year old, but less than four years old, may be reopened only if the
                                       1
contractor establishes '"good cause: Finally. if more than four years have passed rrom the initial
payment determination,the initial paymentdetermination may be reopened by the contractor if and only if
there is "reliable evidence ... that the initial determination was procured by fraud or similar fault.',8

         The law is clear that providers and suppliers are deemed to be "without fault" if the overpayment
is discovered and the initial determination is re-opened subsequent to the third calendar year after the
year Of initial payment!! In essence, this creates a rebuttable presumption of no-fault on the part of the
provider or supplier after the passage of three calendaryears after the calendar year of initial
                                                                        1o
determination and payment. creating a three-year statute of limitations. The Medicare Financial
Management Manual (CMS-Pub. 100-06), Chapter 3, Section 80.1. explains thaUn calculating the three
year period:

                Only the yean)f payment and the year it was found to be an
                overpayment enters into the determination , , " The day aodthe month
                are irrelevant With respect to payments made in 2000, the third
                calendar year is 2003. For payments made in 2001, the third calendar
                year thereafter is 2004. etc, Thus, the rules apply to payments made in
                2000 and discovered overpayments made after 2003, to payments made
                in 2001 and discovered to be overpayments after 2004, etc.

          Finally, and as set forth above, a provider or supplier may .be required to refund overpayments
with respect to claims that are re-opened in the three calendar yearsfoUowing the year of initial
                                                                     11
determination. proVIded the contractor can establish good cause. Good cause does not exist if a
provider or supplier complied withal! pertinent regulations, madefuH disclosure of aU material facts, and
on the basis of the information available, .had a reasonable basis for assuming that the payment was
         12
correct.    Good cause or fault by the provider or supplier. in turn, can be established where:

            '" 	 The provider or supplier made an incorrect statement, which it knew or should have
                 known was incorrect;




1	   See42 C.F.R § 40S.841{b); 42 C.F:R. §40S.980(b)(2);seealso Medicare Claims Processing
     Manua! (CMS Pub. 100:..04) Ch. 29, § 90.3.
8    See42 C,F;R. § 405.841 (c); 42 C.ER. § 40S.980(b)(3);see also Medicare Claims Processing
     Manual (CMSPub. 100-04) Ch, 29,.§ 90.3.
9    See 42U.S.C § 1395gg;(b); 42 C.F.R § 40S;841(c); 42C.ER. § 405.980(b){3); see also MedIcare
     Claims Processing Manual (CMS Pub. 100-04) th. 29. § 90.3.
10   Mt. Sinai Hospital of Greater Miami. Inc. v. Weinberger. 517 F2d 329,342 (Sth Cir. 1975).
l'   See 42 C,F.R §405.841(b); 42 C;F.R §405. 980(b)(2);seealso MedicareClaims Processing
     Manual (CMS Pub. 100-04) Ch. 29, § 90.3.
12   See Medicare Financial Management Manual (eMS·pub, 100-06) Ch. 3, §90.
                                                                                                                   Page   4 of28

                                                                                      Sheri l. Fulcher
                                                                                      November 30, 2011
                                                                                      Page 4




                  ,. 	 The provider or supplier failed to furnish information which it knew or should have known
                       was material; or

                  40   The provider or supplier accepted a payment, which it knew or should have known was
                                 13
                       incorrect

                       2. 	    33 of the 43 Claims Are Barred By the Applicable Three Year Statute of
                               Limitations

         As reflected in T AS A, 24 of the 43 claims at issue involve PMOs that were furnished to the
patient and were adjudicated in 2006; an additiona l nine involve PMDsthat were furnished to the patient
and were adjudicated in 2007. Thus, 33 of the 43 claims at issue are presumed to be "without fault" and
hence are not subject to recoupment, asa matter of law, unless the Medicare contractor can establish
fraud or similar fault There is no evidence whatsoever of fraud or similar fault in this case. The Draft
Report is entirelysllent in that regard and, in addition, the HHS-OIG auditors who were involved in the
audit never raised fraud or similar fault in any of their multiple communications with Marquis. Tothe
contrary. the auditors informed Marquis that they weregeneraUy pleased with Marquis' files and
submissions and did not find any Indicia of fraud or similar fraud.

                       3. 	    The Remaining 10 Claims .Also Are Time Barred Because There Is No
                               Evidence ofGood Cause or Supplier Fault

        Although the remaining 10 claims (out of the 43 disputed claims) are currently within the three
year statute of limitations, they are subjectto recovery if and only if the contractor establishes good
cause - in other words, that the supplier was affault with respect to those ten claims. As set forth in
subsequent sections ofthis Response, the government has not met (and will !'lot be able to meet) its
burden in this regard.

           S. 	        Physician Orders

        The Draft Report identifies eight claims that did not meet Medicare reimbursement requirements
because physician orders were notcorrectly completed. 14 Specifically. HHS-OIG contends that four
claims required a new physician order, three claims did not inclUde the date of the face to face evaluation
of the patient, and one claim had a physician order that was signed .a nddated prior to the face to iace
evaluation.

                       1. 	    New Orders

          Assetforth above, HHS-OIGconcluded that with respecttoroufofthesampledclaims,the
ordering phYSicians had to, but did not,       nd                                   or her
corre.ctions. Thefourdaimsat issue are for                                          and _
_         . SeeTABA.

13
       20C.F.R. 404.507. See als042 C,F.R. § 405.986 (good cause mayheestablished when there is
       new and material evidence that was not originally available or known or that shows on its face that an
       obvious error was made).
14 	   See TAB A .



                          Office of Inspector General Note - The deleted text has been
                          redacted because it contains personally identifiable information.
                                                                                                                   Page 5 of28

                                                                                   SheriL Fulcher
                                                                                   November 30, 2011
                                                                                   Page 5



       As an initial matter, all four of thesecfaims·are from 2006 and. as such, are time barred. Over



                                  _and_
and above that. Marquis respectfully submits that HHS-O!G'sconclusions with respect to patients _.",.
_       . . . a n d _ are wrong. Marquis'·rationale is set forth below.

                         a}
                                                                                    ,.,_." .




       The Centers for Medicare & Medicaid Services ("CMS") uses various manuals to inform providers
and suppliers regarding the type of documentation necessary to seek and obtain Medicare
reimbursement. The applicable manual here is the Medicare OME MACSupplier Manual.

        The Supplier Manual's policy on physician orders Provides that a supplier is required to obtain a
                                                                                                         1
new physician order when there has been "achange to the or-derfor the accessory, supply, drug. etc.· !:>
In the claimSfor_and_, the physician had ordered the PMO, and made no change to the
product ordered. Rather, the physician corrected a misprintto the diagnosis that he or she had listed on
the prescription. This correction did notaffect the type of product or services provided to the beneficiary,
Nor did it change any Instruction to the supplier. A correction to the Hsted alpha-numeric diagnosis code,
especially when the diagnosis is correctly written in narrative form, cannot reasonably be said. to
constitute a change to the accessory, supply, drug, etc. In the absence of achangeJ in the .accessory,
supply or drug ordered by the physician, the physicians were not required to complete new orders.

        The Draft Report further indicates that if the physicians wanted to.avoid completing a new order,
they were required to initial and date their corrections on the existing order. HHS-01G is unable to cite to
any applicable authority thatsuggests that Marquis should have know this to be the case. Rather, the
HHS-OIG argument is one that borrows from the rules applicable to changing a Certificate of Medica!
Need ("CMW). CMNs, however, are different from physician orders and there is no evidence whatsoever
that Marquis knew or should have known that the "initia! and date" requirements for CMNs necessarily
applied to physiCian orders.

          CMS demonstrated its ability to inform suppliers about making correctionsJo CMNs, and gave
instruction on how to do so in theCMN policy. If CMS intends for suppliers to have physicians initial and
date correctioQsto the detailed written order•.CMS mustedtJcate .and inform ·suppliers ofthis requirement
in a simiiarmanner as CMS didfcr the CMN poticy. Neither CMS, nor the individuaijurisdictions, have
eitherinstructed suppliers to use theCMN policy for correcting physiCian orders, or.havegiven separate
guidance for correcting mistaKes on phYSician orders. While thedr<3ft report says that MAC medical
directors "generallyallow",suppliersfo use the CMN policy, it does not eiWto or reference where suppliers
were inforrned .of the medicatdirectors' position.. Simply put, a supplier cannot be neld to a standard
when CMS nas failed to notify thesupplierabout the existence of the>standard. Because CMS has not
notified .suppliers .o f the need toinitiall.date corrections ona physician order, Marquis is ·without fault" as
to these.two claims.




                                had her power wheelchair delivered o n JuneS., 2006. ArthaUime.
suppliers were .,ermltten                order forms and to complete the detailed information on the
products beIng ordered. Specifically. suppliers were permitted to complete everything on the order form

15   Jurisdiction B DME MAC Suppfier Manual. Ch, 8 Documentation at3.



                    Office of Inspector General Note .. The deleted text has been
                    redacted because it contains personally identifiable information.
                                                                                                             Page 6 of28

                                                                                Sheri L Fu!cher
                                                                                November 30, 2011
                                                                                Page 6



except for the diagnosis, physician signature and date. Thus , in that timeframe , Marquis submitted
physician orders to ordering physicians with the HOPC, quantity and description of product pre~popu l ated
on the form The relevant physician would review the pre-populated information, list the diagnosis, insert
the date of exam and sign and date the order.

        When Marquis created the template order form (using its billing software) f o r _ it
made a mistake with respect to the printed description of the items. Marquis identified and corrected
these mistakes by hand and then forward ed the pre-populated order to the physlcian for review,
completion and signature. Thus, the physician did Change or correct the physician order- Rather, the
order that was reviewed and then signed by the phystclan had the handwritten not<;ltions otl it In other
words, the physiclan reviewed the order as marked up and. thereafter signed and dated it

         The Supplier Manual does not prohibit the supplier from using handwriting to complete the
equipment description on Ihe detailed written order Nor does the Supplier Manual require additional
documentation if the supplier makes a correction to the order before it IS signed by the physician. As set
forth above, a new physician order is required only when there is a change to what the physician
originally ordered, resulting in a change in the accessory, supply, drug. etc. Moreover, there is no
applicable authority that states that a physician must sign and date the handwritten changes made in
advance by the supplier, especially when he or she reviews me order with the handwritten changes and
then. and only then, signs and dates it. Thus, Marquis is without fault as to th is claim as welL

                          c)     _


        Marquis does not contest HHS-OiG's fiMings with respect to the claim for
That said, and as noted above, tilts claim is time barred .

                2.        Dates of Face-to-face Evaluations

         The Draft Report states that three sampled daims-_ _ and _ _
did not include the date of the face-to-face evaluation for the power wheelchair.

         According to the applicable Local Coverage Determination, the physician order must include both
the date of the face-lo-face examinatipn and the date of physician signature.'" Incompliance with thiS
instruction. the orders ror patients_ and_ hav~ two dates listed :on their respective
prescriptions> Given trlat two datasare incluoedon the physician orders, Marquis must assume that
HHS-OIG purports to have the contractor re-open and deny these claIms because the dates are not listed
in 8 particula r fashion or with 8. particulardescriptlon.

        The local Coverage Determination, howeVer, provides that the date of the face-io-face
examination must be listed on the ordeL It does not require the physician to write "face~to-face exam" on
the order or to include any other wording . Rather, the policy requires that two detes be listed on the
order: one reflecting that date of the examination and cine reriecting the date of the signature.




16
     Jurisdiction B DME MAC Supplier Manual, Ch. 9 Advance Detemlination ofMedicare Cover?ge
     at 3-4.


                     Office ofInspector General Note - The deleted text has been
                     redacted because it contains personally identifiable information.
                                                                                                                   Page 7 of28
                                                                                     Sheri L Fulcher
                                                                                     November 30, 2011
                                                                                     Page 7



        Patient_ physician order has the date when it was written and signed at the top 

(08/18/2008) and a second date listed as "Start: 08/18!200S_,,17 The medica! records confirm that • 

. .was evaluated on August 18, 2008, and copies of the evaluation were delivered with the
prescription showing the evaluation to be on August 18, 2008. Thus , there were two dates (albeit the
same date) clearly included on the physician order, as required by Medicare.

        The order for patient_ also contains two dates: one on the top right hand and one next to
the physician's signature_ The date, December 3, 2007, matches the date of the face-io-face examination
for a PMD.

        in sum, the detailed orders for patients_ a n d " include the two required dates and, as
such, should not be revisited. Even if HHS-OIG were to disagree, we note that the claim for patient
_      is time barred.

         The th ird and final claim that allegedly is m issing the date of the face-to-face evaluation is for
patient"         The physiCian order, however, contains t'NO dates : the first date (9-B-(6) is immediately to
the right of the physician 's signature; the second date (8-31-06) is set forth above the printed words,
"Date of Exam."

        At bottom, then, patient "  was evaluated on August 31 , 2006 , with the ph ysician completing 

and signing the order on September 8, 2006. There IS nothing wrong with this order and, even if there 

were, the clai m is lime barred . 


         Marquis believes that the proposed denial for patient" may have occurred due to the patient
obtaining a second , new power wheelchair after receiving the original power wh eelchair from Marquis.
The patient owned the power wheelchair delivered on October 7, 2006, and. w as free to use and dispose
of the power wheelChair as he deemed fit After receiving the power wneelChair,_             returned to
Marquis and negotiated the purchase a different power wheelchair, with Marquis accepting return of the
original power wheelchair as part of the negotiation. Marquis did not submit a claim to Medicare for the
second power wheelchair, as the second power whee!chalr wou ld not have qualified for payment under
the replacement policy_ 18 Thus , the second transaction has no bearing on the original order because it
was not blUed to Medicare, and does not change the medical need for the power wheelchair delivered 011
October 7, 2006. Since the physician order was properly completed prior to the delivery on October 7,
2006, any iater purchases of equipment (not billed to Medicare} cannot be used to negate or cancel the
appropriateness of the original purchase.

-...•..
      -- -.-.-~. ---- -~---~-.- . -


17 	
          Because HHS-OIG already is in possession of the relevant docu ments, we do not re-attach them 

          here. That said, if HHS-OIO requires any source document, Marquis stands ready to furnish it 

IS
          Even though Mar quis MobWty dld not submit a claim for payment to Medicare for the second po'wer
          wheelchair, Marquis MobiHty did notify the physician that the patient was purchasing a different power
          wheefchair, The information o n the second power wheelchair was sent to the physician on a template
          Detailed W ritten Physician Order, and the physician signed and returned that form to acknowledge
          his receipt (See document # 000987) Since Medicare did not pay for the second power wheelchair,
          the fact thaU he physician was not requested to complete the Detailed W ritten Physician Qrder in its
          entirety cannot be used to deny the coverage for the power wheelchair sold to patient" on
          October 7 , 2006.



                        Office of Inspector General Note - The deleted text has been
                        redacted because it contains personally identifiable information.
                                                                                                             Page 8 of28

                                                                                 Sheri L Fulcher
                                                                                 November 30,2011
                                                                                 Page 8




                 3.        Physician Order Pre·dates Evaluation Date

                           a}     _


        Marquis does not contest HHS-OIG's findings w ith respect to the claim for patient _            .
That said , and as noted above, this claim is time barred.

         C.      Missing Documentation

        T he Draft Report identifies nine claims that Ihe Medicare contractor should have denied because
ihe claims were not supported by a separate writing that provided a detailed description of the producL 19
The nine claims at issue are identified in TAB A.

                 1.        Background

        Historically, it was perfectly acceptable for a supplier of PMDs to include the detailed product
description on the physician order. Effective November 15. 2006, suppliers were technically required to
prepare a separate written document that lists the PMD and aH options and accessories . HHS -OIG
purports to have nine claims denied because they were not supported by a separate 'written document.
even though all of the underlying product information is set forth in the relevant physician order.

         Although the Local Coverage Determination was amended in the fall of 2006 . Marquis
respectfully submits that neither CMS nor the separate jurisdictions educated or in structed suppliers
about the effects of the chang.e until approximately one year        on or about October 7, 2007 .
Moreove r, the DME fvlACs did not appear to understand or enforce the revision in 2006 or early 2007. As
will be discussed below, in the time frame at Issue (late 2006 into the first quarter of 2007) . the DME
MACs contin ued to approve claims for PMDs that provided the detailed product description on the
physician order rather than in a separate document, thereby demonstrating Marquis' lack of "fauW.

                 2.        DME MAC Rulings

         As set forth above, the Draft Report identifi es and questions nine cla ims from the time period of
Nove mber 15, 2000 through February 28,2007 because these claims placed the detaiied product
description o n the physician order. During this same time period, however, Marquis appealed for
Redetermination Revlew2'O five claims that had been denied electronically and that used the single form
that is now being chal lenged by HHS·O!G. The DME MAC overturned all five denials, and could not have
done so unless It had determined that aU coverage and reimbursement requirements had in fact been
met The DME MACs rulings illustrate two things. First, no one, including the DME MACs. was enforcing
the Local Coverage Determinat!on at issue in the timeframe at issue. Second, it was perfectly reasonable

'9   Draft Report at 5. 

20   The redetermination appeal is the first level of appeal and is conducted by the DME MAC. According 

     to Jurisdiction B's Supplier Manual, a redetermination is a new, independent. and critical
     reexamination of a claim. It is conducted by reexamining the information in the file and any additional
     documentation submitted with the request for a redetermination.




                      Office of Inspector General Note - The deleted text has been
                      redacted because it contains personally identifiable information.
                                                                                                               Page 90f28

                                                                                   Sheri L FUlcher
                                                                                   November 30, 2011
                                                                                   Page 9



for Marquis to submit the nine claims in the manner in which they were submitted and to expect that such
claims would be paid.

          It is noteworthy that one of the nine claims being contested by HHS-OIG-patient_
_ _was the subject of an appeal to the DME MAC. Although DME MAC ended up down coding
the PMD from a power wheelchair with elevating seat to a standard group 2, K0823, the DME MAC took
no issue with the single form used by Marquis to comply with the physician order and the detailed written
description requirements and paid the K0823 . This fact notwithstanding, HHS"OIG purports to include
this cla im in the group of claims that the contractor should deny and for purposes of calculating the
extrapolated repayment amount

         Given the lack of education and training and the fact that the DME MACs continued to approve
and pay claims that were supported by detailed product ciescriptions on the physician orders, it was
perfectly reasonable to assume that the payments at issue were correct In other words, even if,
assum ing arguendo, the nine claims were not time barred (which they all are), we do not. believe that the
Medicare contractor eQuid establish the exIstence of "good cause" with respect to any on the nine claims.

           D.      Medical Necessity

        The Draft Report concludes that 26 claims did not meet the basic coverage criteria for medica!
necessity. The 26 claims at issue are identified by color code at TAB A

                   1.         Time Barred Claims

          As an initial matter, we note that 17 of these claims are time barred by the three year statute of
limitations. See TAB A

         Furthermore, as the roHowi ng diSCUSSion demonstrates, the government cannot meet its burden
of demonstrating good cause or supplier fault required to reopen and demand the refund of the remaining
nine claims.

                    2.        Previously Appealed Claims

        Four of the 26 claims tMt were challenged by HHS-OIG on medical necessity grounds- _
_      ,                  .                  a n d _ l a d been previously reviewed and
approved by the                        respectfully submits that HHS-OIG cannot properly recommend that
the Medicare contractor revisit claims that have been adjudicated to meet Medicare medica! necessity
requirements by the relevant DME MAC on a Redetermination Review.

            Specifically :

                                     original PMO was denied because Medicare does not cover power
                   wheelchairs with elevating seat Upon appeal, the claim was down coded to and paid as
                    a standard K0823 power wheelchair. thereby establishing the medical necessity for this
                    claim.




                         Office of Inspector General Note - The deleted text has been
                         redacted because it contains personally identifiable information.
                                                                                                                  Page 10 of28

                                                                                     Sheri L Fulcher
                                                                                     November 30, 2011
                                                                                     Page 10



            ..        Each of the c!aimsfor patient s _ , _ a n d _ w as reviewed as part of an
                      appeal of the denial ofanaccessory. lmportantiy, the Local Coverage Determination for
                      Wheelchair Options/Accessories (L 11473) provides: options and accessories for
                      wheelchairs are covered if the patient has 8 whee/ch air that meets Medicare coverage
                      criteria and the option/accessory itself is medically necessary}l Thus, Medicare will not
                      pay for an accessoryinthe.absence of medical necessity of the underlying wheelchair.
                      Because all three accessory claims were approved and paid on appeal,itfollows,a
                      fortiori, that the DME MAC conside red and found the medical necessity of each of the
                      underlying PMOs.

                      3.        MRADl

         It is Marquis' understanding from HHS-OIGthat 12 of the 26 medical necessity claims were
deemed by HHS-01G to lack medical necessity because the patient allegedly could perform his or her
mobility related activity of daily living CMRADL"l

                                a)      Background

       One of the basic medical necessity criteria ·for power wheelchairs is whether or not the patient
has a mobility limitation that interferes with his or her normal daily activities.

         The Local Coverage Determination provides that MRADL includes such activities as toileting.
feeding, dressing. grooming and bathing in customary locations in the home. The concept of a MRADL is
separate. distinct and broader than the concept of an activity of daily living CADL"). A MRADL covers
both the ADL itselfand the attendant mobility or ambulatory componenLof the ADL. For exampie, a
MRADL does not simply encompass toileting, bathing or grooming ina bathroom, but also the ability to
ambulate to and in the bathroom. Similarly, a MRADL is not simply the task ofputting on one's clothes,
but reaching the bedroom in the first instance in or-derla put on the clothes. Likewise, the MRADL of
feeding is not just sitting at thetabJeand feeding oneself, but ambulating to the. kitchen to get to the table
in order to feed oneself. Thus, ita patientor healthcare provider says they can perform their ADLs
independently, the analysis does not end there. The next question shou ld be: "how did yougeUo the
kitchen or bathroom to complete the ADL?"

          In addition, a patient can stilt qualify for a power wheelchair even if he or she can physically
compietethe MRADL The Loca! Coverage Determination provides that the patient have a "mobility
limitation." A mobHity limitation is more thanthe inabilitytacompletea MRADL; italsa encompasses the
inability to complete a MRAD ina safe or timely manner. The analysis mustcover safety concerns that
                 to
are attendant the patient's efforts to walkor ·propelamanua' ·wheeichair on their OWn. Additionally, the
analysis musfalsoconsider haw long ittakes the patient to independently walker propel the manual
wheelchair throughoutthe home. If the patient is placing him or herself ata heightened fisk ofinjury due
to a nighrisKoffaUs, or has a history of falls. the patient .is considered to have a mopility limitation.
Furthermore, ifthepatientcanreac.h the kitchen orbathroomsafei,Y, but takes an unreasonable amount
ortime to getta the kitchen or bathroom, he or she also has a mobility limitation.




21   Jurisdiction B D ME MAG Supplier Manua!, Ch. 9 Advance Determination of Medicare Coverage at5.



                           Office of Inspector General Note - The deleted text has been
                           redacted because it contains personally identifiable infonnation.
                                                                                                             Page 11 of28

                                                                                   Sheri L Fulcher
                                                                                   November 30, 201 '1
                                                                                   Page 11



        Finaliy, the Local Coverage Determination does not require the patient to be impaired from
completing alf or most of the MRADLs, Rather, the Local Coverage Determination only requlres th at ill
least one MRADL be impaired due to a mobility limitation.

                          b)      Individual Claims

                                  (1 )

         _            suffers from a combination of severe chronic obstructive pulmonary disease, the
debilitating effects of dialysis and congestive heart failure rCHF") . This combination has caused.
_         to be unable to safely ambulate throughout his home.

        _             has been diagnosed with NYHA class IV CHF, demonstrating the significant
problems and debilitation of the disease, Class IV CHF signifies that a patient is unable to carry out any
physical activity without discomfort and symptoms of cardiac insufficiency at rest _
evaluation demonstrates his struggles with the disease, evidenced by his episodes of near syncope and
dizziness, _             has a history of fails, which occur at least once per month,

         Consequently, _               is unable to safely ambulate from one room in his home to another.
Among other things, efforts at ambulation result in shortness of breath and dizziness, which, in turn ,
heighten the risk of failing. This is not hypothetical because, as the record reflects, _         was
actually faHing on a regular basis when he tried to ""lalk.

         Marquis believes that HHS-OIG may have relied on the occupational therapy report to question
this claim, and assert that               can perforrn his own MRADLs. While the occupationat therapist
documented that                     functionally perfonm the activity n;e" the ADL task) when piaced in front
of him, she failed to address the safety Of functionality of the mobility portIon of the MRADL (e.o., walking
to the          to perform meal preparation, or walking to the bedroom for dressing , etc). Rather, the
occupational therapist only documented the ADL task itself (~. actually putting on hiS socks, etc,) •
_          ability to perform the mobility related activity of daily living was addressed by his physician.
According to the physiCian's documentatio n, _                 places hImself at heightened risk of injury when
attempting to ambulate in his home to perform the individual ADL.

        The history of falls, combined with the continued risk of faiHng, demonstrate t h a t _
suffered from a mobility limitation that "placed the patient at reasonably determined heightened risk of
morbidity or mortality secondary to the attempts to perform an MRADL. "

                                  (2)      _


        _          suffers from a severely painful disease process that has taken away her ability to
functionally ambulate throughout her home. She has been diagnosed With both degenerative disc
disease as well as lumbar disc displacement, Which cause her excruciating pain if she attempts to stand
for more than five to ten minutes. The pain also has caused her to have some generalized weakness,
tested as 4- 4+/5.




                   Office of Inspector General Note - The deleted text has been
                   redacted because it contains personally identifiable information.
                                                                                                       Page 12 of28

                                                                                Sheri L Fulcher
                                                                                November 3D, 2011
                                                                                Page 12



          During her evaluation, _       could only manage to ambulate ten feet with a walker. Likewise,
she CQuid only propel a manualwheelchairfor ten feet before having to stop and rest due to severe and
debilitating pain caused by degenerative disc disease and displacement.

          To alleviate the pain and weakness when attempting to walk, _ l e a n s forward on the
walker. resting her entire weight on the walkerc T his makes the walker unsafe and increases the risk of
her falling, (She has suffered falls in the past, and her risk has increased as her pain and discomfort
have increased,)

          Like other claIms addressed in this section. the physical t herapist only addressed _
ability to complete the actual ADL task itself; she did not addressho_ _ _ limited mobility
impacted her ability to perform MRADLs. And, even then, the physical therapist documented that.
"requires assistance for the ADLs of grooming and bathing.

         The face-to-face evaluation record does discuss_           problems with completing MRADLs,
in addition to its discussion regarding ADLs. According the physician record,_cannotcomplete
feeding or grooming herself. The conclusion is further supported by the home assessment report. Based
upon the layout o f _ h o m e , she could not go the length of her living room withouttakinga'r~.st.
let alone lrave!fromone end of her home to the other.

        _therefore is prevented from "completing an MRADL within a reasona~te time frame"
because ofhaving to take a rest break every ten feet She is also at a "reasonably determined
heightened risk of morbidity or mortality secondary to the attempts to perform an MRADL· due to her risk
and history of faUs.

                                 (3)

        _ suffers from rheumatoid arthritis, end stage renat disease and chro,n1c obstructive
pulmonary disease. The rheumatoid arthritlshas caused stiffness and weakness of multiple joints,
including Mc ·Snay's shoulders, wrists, hands and knees; He also undergoes dialysis three times a week,
causing overall debility and fatigue.

        The HHS-OIG reviewer may have found_to be able to independently perform his
MRADLs becaUse he was documented walking between 100 to 150 feet It is importantto note, however,
that he was also documented as being unsafe when walking, l eading to the conclusion that he cannot
perform some of his MRADLsindependentiy.

       _ w a s observed b y both the physician Clnd physical therapistas haviQQdecreased
balance, walking withshuffHnggait flexed.atthe hip .. _          baranceproblemswereso severe that
the physical therapist said he. requires standby assistance ofacareglver 'w henwalking, even if using a
cane or walker. As he.fatigues, he becomes increasinglY!Jnstable and is ata high risk of falls.

         After examinin_ the physical therapist stated that_could not independently"."
perform two separate MRADLs: meal preparation and bathing. He becomes fatigued, easily lOOSing his
balance, preventing him from completing the MRADLs. Therefore, the documentation established the
medical necessity requirement that one or more MRADL is impaired bya mobility limitation. "preventing
the patient from accomplishing an MRADL entirely,"



                  Office ofInspector General Note - The deleted text has been
                  redacted because it contains personally identifiable information.
                                                                                                                Page 13 of28
                                                                                    Sheri L Fulcher
                                                                                    November 30, 2011
                                                                                    Page 13



                                   (4)

        _         suffers from a combination of renal disease (for which he has a dialYSIS port in his left
arm), rheumatoid arthritis and neuropathy. These conditions have decreased                 strength and
endurance and cause him to experience painful movement. On dialysis days,                does not have
the endurance to perform any activities, and requires complete assistance of caregivers.

           Upon examination on a non-dialysis day. _            was able to walk approximately sixty-five feet
,'lith a rolHng \'lalker. That said, he required contact guard assistance during the examination, and thus
wa~ notable to accomplish even this distance independently. _                   physician noted that on
dialysfsdays, he requires complete C;;lre giver assistance for all of his activities due to his significant post­
dialysis fatigue . Th us, on both dialysis and non-dialysis days, _          is not capable of walking
inciepe ndentry or safely with a cane or walker.

         _          cannot independently propel a m anual wheelChair beyond ten feet. He suffers from a
lack of endurance_ The pain from the rheumatoid arthritis and a dialysis port further restrict the use of his
arms. The situation is more dire on dialysis days w h e n _ cannot perform independent activities,
relying heavily on the assistance of a caregiver.

        In sum, _           cannot independently move about his home without the assistance of a
caregiver, either providing contact. guard assistance or completing the task Itself !n other 'Nords,.
_      has a mobility limitation that · prevents him form accomplishing one or more MRADL entirely,"

                                   (5)

        The face-to-face evaluation describe d _ as suffering from a long list of debilitating
conditions, Induding chronic obstructive pulmonary disease, diabetes, coronary arter; disease with stent
placement,            arterial disease, chronic        disease and degenerative arthritis, These chron ic
conditions were causing a steady declin e in her health over the year leading up to the evaluation.

         _           does not have the strength , stamina Of balance for independent use of a cane or
walker, preventing her from independently perforrnlog her MRADLs. Upon examination, she was found to
have decreased strength in her lower extremities of 4-/5. She was noted to have poor standing tolerance
and decreased ablHty to maintain her legs in a standing pOSition. Her knees would buckle when
attempting to stand, demonstrating poor standing balance. Indeed, _             could only vva tk a
maximum of twenty-five feet, and even then only with a caregiver providing contact assistance. Her gait
was slow and Unsteady, demonstrating an inability to walk safely without the support of her caregiver, In
fact, the record estabHshes that she has not been ab le to ambulate aione, eVen with a cane or wa!~;er, for
some time because she faUs backw8.rds when she l.o05e5 her balance.

        Based upon her lack of balance and independence in walking, the physical therapist stated that
_           requires the assistance of a caregiver to ambulate to the bathroom for tolleting. Shealso
requires the assistance of a caregiver to go the short distance from the family room to the kitchen , but
would be able to feed herself independently once there. She cannot propel a manual wheelchair on her
own.




                    Office of Inspector General Note - The deleted text has been
                    redacted because it contains personally identifiable information.
                                                                                                             Page 14 of28

                                                                                 Sheri L Fulcher
                                                                                 Novem ber 30, 2011
                                                                                 Page 14




        _             is therefore completely dependent upon caregivers for performing her MRADLs, Her
mobility limitation has significantly impaired her ab1hty to perform one or more MRADLs, specificaHy
feeding and tolleting, as she is "prevented from accomplishing the MRADl entirely,"

                                 (oJ     _

         The documentation of the face-la-face evaiuation describes h o w _ has been suffering
from a recurrent, and now permanE':!nt, shoulder problem (a hematoma) that has taken away her ability to
use her right shoulder in any functional manner. In addi t i o n , _ can no ronger move her right arm
for activities above waist leveL Furthermore, she su ffers from significant edema in her fegs, causing her
to have an unsteady gait pattern- The problems w ith her shoulder and le95 have prevente d _
from being able to s afely ambulate throughout her home to complete her MRAOLs.

        _           does not have the physical ability to walk safely or timely throughout her home to
perform her normal MRADLs. She is at a high risk of faUing due to her gait pattern, as well as the fact
that she cannot effectively use her right arm to support herself with the walker. Her risk of injury is
heightened by the fact that she takes Coumadin, a blood thinner, placing her at risk of bleeding injury or
deaHl from a fa iL

        _           was observed to have a head down, forwa rd flexed position, She wa lks with her tl ips
circumducted due to the severe edema of her lower extremities In other words , her le.gs cannot pass by
one another ill a normal gait pattern because of the amount of water retention in her iegs. She reqUires
the assistance of a caregiver when walking to give her continua! verbal cues to correct her gait pattern.
Without the careg iver assistance, she would be at an even higher fisk of falls as she did not correct her
posture and gait problems on her own, and continued 10 regress into the incorrect gar! even after verba!
reminders

          Currently. _           does not have the requisite caregiver assistance and m ust attempt to
independently ambulate to the bathroom and kitchen for her MRADLs. The fact that she attempts to
perform the MRADL, or is able at times to perform the MRADL, does not disqualify her from obtai ning a
power wheelchair. The issue [s w hether she is safe and timely in performing the MRADLs and the
docu mentation from the face-to-face evaluation demonstrates that she is neither- She is not only at risk
of falls, as discussed above , but it takes her over five minutes to wai!< 140 feet She then requires five
additional rninutes to rest after walking .

        in sum,_            cannot walktu nctionat distances within a reasonable time frame. Most
importantly, she has demonstrated that she is not safe w hen walking this distance, and cannot effectively
use her right arm for support with the walker. _          therefore IS prevented from "completing an
MRADL within a reasonable time frame, " She is als o at a "reasonably determined heightened risk of
morbidity or mortality secondary to the attempts to perform an MRADL" due to her risk of falls.

                                 (7)

                   suffers from significant neuropathy in both of his hands, as weH as weakness in all four
extremities.            also underwent an above the knee amputation on his right leg, and has a
prosthetiC. Unfortunately, the prosthesiS has not provided _           with the assistance he needs fo r
safe and timely independent ambulation ,



                   Office ofInspector General Note - The deleted text has been
                   redacted because it contains personally identifiable information.
                                                                                                             Page 15 of28

                                                                                   Sheri L Fulcher
                                                                                   November 30. 2011
                                                                                   Page 15



        _          requires assistance from caregivers for performance of his MRADLs. _
neuropathy in his hands prevents him from being able independently to don or doff his prosth~tic, which
he needs to attempt any walking within his home. Without the prosthetiC, _          is unable to walk any
distance, and is completely wheelchair bou nd .

          Even w ith the prosthetic on, _         still requires assistance of a careg iver whe n he walks with
the rolling walker and prosthetic due to a risk of falls. Because he does not have full, normal function of
hiS handS, he cannot grip the 'lialker to compensate for his lack of strength and coordination with the
prosthetic

         Onc e _ dons his prosthetic and has a caregiver available, he is stilillmited in the
distance he can Walk before resting or in total. When he uses both the prosthetic and the walker,.
_      is only able to walk thirty fee! before taking a rest break, and his maximum distance is seventy-five
feet

          The physician specifically noted t h a t _ is unable to use a cane or walker to assist him to
get to , or m ove about, his kitchen, as is necessary for feeding, an essential MRADL T he physica l
therapist agreed, noting l h a t _ requires assistance for the MRADL of feeding and toUeting, and is
completely prevented from bathing Of grooming on his own

         Additional l y _ can not use a manual wheelchair to resolv e his MRADL problems.
_        neuropathy Hmits his ability to grip the ma nual wheelchair. He also has a dialys1s shunt in his left
arm that limits the use of the left arm for propeWng purposes. Finally, he has decreased strength in both
of his upper e xtremities , measured as 4+i5 . As a result of the combinahon of neuropathy, shunt and
weakness, _             can only propel for a maximum of twenty feet, and It tak.es him at least three
minutes to go this short distance

        COllsequent l y , _ m obility limitations completely "prevent him from completing
MRADLs" such as meal preparation or grooming because he requires the assistance of a caregiver to
don his prosthetic and assist wilh ambulation once the prosthetic is on. When he attempts to complete a
MRADL without a caregiver, _            is both >; prevented from com pleted a MRADl wlthin a reasonable
timeframe," and he IS placed at "heightened risk of morbidity or mortality. "

                                  (8)     _


      _          suffers from a combination of medical conditions that have limited her ability to
ambufatewithin her home. Specfflcally, si1e stlffers from congestive heart failure, chronic obstructive
pulmonary disease, a ruptured disc, carpal tunnel in both hands aM nerve damage in her left foot

        _           medica! conditions cause her to experience significant pain and have limited her
endurance. Her ruptured disc and nerve damage cause significant pain when she walks The carpal
tunnel syndrome makes it painful to try and grip a cane or walker. In addition, the neuropathY of her
iower extremities places her at risk for falling and injury when she walks.

        The debilitating pain causes her to become short of breath very quickly, which is exacerbated by
her lack of respiratory reserves. She needs to take extended rest breaks after only a very short d istance.




                   Office of Inspector General Note - The deleted text has been
                   redacted because it contains personally identifiable information.
                                                                                                                Page l60f28

                                                                                 Sheri L Fulcher
                                                                                 November 30, 2011
                                                                                 Page 16




For instance,_ can only walk five to ten steps after which she becomes too short of breath,
experiences too much pain to continue and must stop and take an extended rest break .

        _        also cannot grip the wheels of the manual wheelchair due the pain from her carpal
tunnel syndrome. Moreover, she does not have the endurance to se!f~pfOpe! the manual 'Nneelchair as
she rapidly becomes too short of breath. As such, she must be pushed by a caregiver in the manual
wheelchair because she does not have the physical ability to use the device on her own .

         As a result of her mobmty limitations that cause her to stop and rest after only five to ten feet,.
_       physician stated that she is prevented from completing aU of her MRADLs within a ~reasonab!e
time frame."

                                 (9)     _

        _         has severe chronic obstructive pulmonary disease with severe dyspnea, demonstrating
hY.p. oxia symptoms, _        also SUffers. from cor pu lmonale, adding to his cardio-respiratory
limitations. Consequently, _        becomes dyspenic with minimal activity.

        _            pulmonary status Hmits ihe amount of activity he can accomplish before having to
stop and take an extended rest break. For instance, his physician documented that once_walkS
short distances in his house, it takes him approximately fift.een minutes to reCover from his shortness of
breath. He also has d~lspnea with minimal activities such as bathing, dressing and attempts at
ambulating. In other words, he must rest for a long time before he can actua lly complete the task in the
room (such as feeding, toiieting, grooming or bathing).

        _          therefore has a mobility limitation that "prevents him from completing an MRADL within
a reasonable timeframe,"

                                 (10)    _

        _           has severe medical conditions that have limited her ambulatian For instance, she
suffers from asthma and chronic obstructive putmonary disease leading 10 continual use of supplemental
oxygen, atherosclerotic heart disease. diabetes with diabetic neuropathy and degenerative arthritis. •
                           th
_       has had her right 5 metatarsal and sma!! toe amputated with incomplete healing, as well as leg
problems leading to surgical bypass to the right lOWer extremity, She has also required a cardiac
catherization and stent deployment to the right carotid artery. Finally, she suffers from lumbar
degenerative disc dIsease, which was so severe that she required emergency decompressive surgery.

       Upon examination by both her physician and physical therapist _          was found to be
completely non-ambUlatory even with the use of a cane or walker. She did nothave the strength or
endurance to ambulate due to the p~in and weak.ness caused by the combination of her cardio­
pulmonary problems and musculoskeleta! issues.

          _             is also limited in her ability to use a manual wheelchair Upon examination, she could
only 5e·l f propel for a maximum of twenty feet, which took her ten minutes to complete.




                    Office ofInspector General Note - The deleted text has been
                    redacted because it contains personally identifiable information.
                                                                                                            Page 17 of28
                                                                                    Sheri L Fuicher
                                                                                    November 30, 2011
                                                                                    Page 17



         Based upon her inabil ity to walk, and the extreme amount of time it takes for her to self propel a
manuai wheelchair, _                physician determined that she cannot perform her activities such as
bathing and toileting without caregiver assistance, The physical therapist stated t h a t _ was
compietely prevented from performing one or more MRADL, namely feedfngifood preparation in the
kitchen.

        The face-to-face evaluation therefore provides t h a t _ is "complete!y prevented from
performing one or more MRADLs ," and the examination further demonstrates that she would not be able
                                                                     n
to Independently "complete her MRADLs within a reasonable time frame

                                  (11 )

       _                suffers from chronic obstructive pulmonary disease requiring continuous use of
supplemental oxygen atthree liters per minute and, despite such treatment, still suffers from severe
dyspnea with minimal activity . _ a l s o suffers from pulmonary fibrosis and cor pulmonale,
both contributing to his hypoxemia .

                          shortness of breath has caused significant limitations in his ability to perform
normal activities within his home. For insta nce, after tess than ten feet of ambulati o n , _
becomes srgnjficant1y short of breath, causing him to be unsteady on his feet and at risk for falling . He
must take extended rest brea~;s of approximately fifteen minutes to recover after ten feet of ambulation ,

        _              can not traverse any farther using a manual wheelchair. He is limited to
approximately ten feet when using his manual wheelchair himself, and then must take an extended rest
break to recover from his shortness of breath.

        Due                       severe shortness of breath with only ien feet of ambu!ation, and his
requirement for at least a fifteen minute break to recover from this limited activity, his physician
determined l h a t _ is not timely with bathing or dreSSing. Thus, _                            is "prevented
from completing an MRADl within a reasonable time frame."

                                  (12)

        _           suffers from severe chronic obstructive pulmonary disease, which has caused
diminished air flow leading to significant deficits in !'l!;;f endurance and activity tolerance, Her attempts to
walk, even with a cane or walker, have caused exacerbation to her severe lung disease. The physician
specifically stated that_cannot walk from room to room withOut serious respiratory issues.
Moreover, _            !acksstrength to perfom) other daily activities due to her lack of respiratory
reserves,

        Consequently, _           is ' prevented from accompfishing an MRADL entirely" and requires the
use of a power wheelchair to allow her to continue to live at home.

                 4.        Patient Was Evaluated Face-to Face

        The Draft Report purports to have the Medicare contractor deny three claims on the alleged
ground that the medical documents do not establish that the ordering physician conducted a face-to-face



                      Office ofInspector General Note - The deleted text has been
                      redacted because it contains personally identifiable information.
                                                                                                           Page 18 of28

                                                                                 Sheri L Fulcher
                                                                                 November 30, 2011
                                                                                 Page 18




examination of the patient to assess his or her eligibility for a PMD. In all three cases , however, the
medical record includes a record of the patient's evaluation by the physician. Thus, the claims should
remain paid in full.

        According to the l ocai Coverage Determin ation, the report of the face 4o-face evaluation is to be
documented in the physician's progress notes in a format similar to the format used for other entries.
Although the record should demonstrate that the primary purpose of the patient visit was for a mobility
examination, the physician is permitted to address other non-mobility issues during the visit

                         a)

         HHS-O!G recommends denial of the claim f o r _ for lack of documentation of a face-to­
face evaluation. _             progress note from August 18, 2006 starts with the foHowing chief
complaint: "Unable!o ambulate due 1.0 galt instability." The progress note then discusses_
current problems with performing his MRADls, as '.'1eli as why he cannot use a cane , walker or manual
wheelchair to resolve his mobility limitations. The progress note also incilldes an impressioniplan, which
states, "gait abn ". The information included in the progress note indicates that a primary purpose of the
appointment was a mobility examination Indeed, the note begins with mobility issues and ends with a
plan to use a motor scooter. Five days tater, on August 22, 2006, the physician's entry indicates that an
electric wheelchair is needed because patient is "unable to use scooter due to space limitation ." In sum
we respectfully submit that there is no substantive basis for recommending the denial of this claim, even
if. arguendo, it was not separately time barred .

                         b)

        The second claim allegedly lacking a face-to-face evaluation i~ _                    was
examined by his physician on August 3, 2006, The physician documented his examination in a dictated
note, wh ich starts as foHows: "This will serve as a progress note on         who at the present time
has severe ambuletion capacity." The enuie note discusses                  lity limitations.

        It is believed that the HHS-OI G reviewer may have sought to deny this claim On the basis that the
progress note !s written in a format similar to a letter. The Local Coverage Determination, however, does
not require the face-ta-face evaluation to be recorded in a particular format.

          The physician who evaluated _            is a specialist His quite common for specialists to
document their encounters with patients in the form at of a letter to be sent to a referring physiCian or
family practitioner. The physjcian at issue documented that he evaluated_ and described the
f,ndings of the eValuation. The only topic discussed in the report is the mobility examinatlon ,
demonstrating that the primary (and only) reason ror the visit was the mobility examination. The physician
furthe r stated that the document was the progress note for the encou nter. Th us, the document should be
accepted as such" The patient's medical record therefore includes a copy of the physician's face-to-face
evaluation supporting the medical necessity of the power wheelchair.

                         c)

        The Draft Report also proposes to have the cfaim f o r _ denied due to lacking support of
a face-to-face examination . The medical record supplied in supportofthis claim, however, included the


                   Office ofInspector General Note - The deleted text has been
                   redacted because it contains personally identifiable information.
                                                                                                             Page 19 of28

                                                                                    Sheri L. Fulcher
                                                                                    November 30, 2011
                                                                                    Page 19




physician's progress note as well as an evaluation by an independent physical or occupational therapist
The therapy evaluation was performed by an independent therapist, and then reviewed by the physician
prior to ordering the power wheelchair, As the Poiicy Articte for Power MoblHty Oevices explains, a
physicia n may have a physical or occupational therapist perform part of the face-te-face examination

                 The physician may refer the patlen! to a licensed/certified medical
                 professional, such as a physical therapist (PT) or occupational therapist
                 (OT), who has experience and training in mobility evaluations to perform
                 part of the face-lo-face examinatio n, This person may have no financial
                 relationship with the supplier, (Exception: If the supplier is owned by a
                 hospital, PT or OT working in the inpatlent or outpatient hospital setting
                 may perform part or the face-to-face examination,)

         The therapy report is thereafter viewed as part ofthe physician notes, relieving the physician from
rewriting aU of the medica! necessity criteria from the therapy report Into his/her progress notes,
Jurisdiction B. Council A Questions and Answers, explained :,

                 23, It a therapist conducts part of the face-fo-face examination, must the
                 physician address all of the major coverage criteria (address ambuiation ,
                 rule out least costly altematives, etc,) in the chart entrf from his/her face­
                 to-face examination? Even if the therapist documents some or all of the
                 criteria?

                 ANSWER if a part of the face -to-face exam is performed and
                 documented by a PTIOT who has no financial relationship with the
                 supplier, those parts of the exam do not have to addressed by the
                 physiCian in his/her exam,22

        Consequently, the iherap~st's evaluation must be revi ewed as though it was performed by the
physician, glven the same weight and consideration as the information actuall y written in the physician's
chart notes. The two reports-the physician'S and the therapist's-flluslbe viewed as one

                     was eva!uated by both her physician and an independent physical therapist. The
physician                       or. June ·1g, 2006, He created two separate documents of this encounter:
handwritten short-hand note and a detailed typed note, The typed note states "power wheelchair
discussed with the Patient" The remainder of the typed note                         mobmty limitations
and the baSIS for his medica! deciSion to prescribe a power wheelchair.             was further
evaluated by an independent physical therapist one week later, on June 26, 2006 , The physician
thereafter reviewed and signed the physical therapy note on August 3, 2006, completing the face-to-face
evaluation for the power wheelchair, Consequently, the face-to-face evaluation for _ was fully
and properly documented by the physician and the phYSical therapist and the two files must be viewed




    National Government Services, Jurisdiction B DME MAC Council A Questions and Answers, available
    at   http://www,reglonbcounciLsitecreatorpluscom/f/January_2009~Q_arid_A_DocumentJINAL.pdf
    (Jan. 22, 2009),



                   Office ofInspector General Note - The deleted text has been
                   redacted because it contains personally identifiable information,
                                                                                                             Page 20 of28
                                                                                    Sheri L Fulcher
                                                                                    November 30, 2011
                                                                                    Page 20




together as a sin gle report that is included in the m edical record , (Furthermore, and as noted above, this
file was reviewed as part of a Redetermination Appea! fo r a Wheelchair and approved for payment)

                    5.        The Medical Records Contained Supporting Documentation.

      It is Marquis' understanding from the HH S~O! G that 1.1 of the 26 medica! necessity claim s were
deemed by HHS-OIG to not be medical necessity because the medical record did not include supporti ng
documentation,

                              a)     Background

        According to the Local Coverage Determination Policy, a physician must perform a face"to-face
evaluation of a patient to determine and document the medical need for the pO'vver wheelchair. The Local
Coverage Determination does not require th.e physiCian to include a specific llst of facts or objective
measurements in this review. Rather, the Local Co verage Determ ination states that the evaluation
should be tailored to the individual patient's conditions. As the Local Coverage Determ ination explains,
the physician m ay include the followlng elements in the report, but each element does not have to be
addressed in every evaiuation:
             "	     Symptoms

             " 	 Related diagnoses

             .. 	   History

                    Q	
                         How long the condition has been present

                    Q	
                         Clinical progression

                    o	
                         Interventions that. have been tried and the results

                    o
                         Past use of walker, manual w heelchair, POV, or power wh.ee!chair and the results

             "	     Physical exam

                    o
                         Weight

                    c
                         Impairment of strength , range of motion, sensation, or coordination of arms and legs

                         Presence of abnormal tone or deformity of arms, iegs, or trunk

                         Neck, trunk , and pelvic posture and flexibility

                    o
                         Sitting and standing balance

             .. 	   Functiona l assess ment - any problems with performing the following activities including
                    the need to use a cane, walker, or the assistance of another person
                                                                                                           Page 21 of28
                                                                                  Sheri L Fulcher
                                                                                  November 30, 2011
                                                                                  Page 21




                     Transferring between a bed, chair and PMD

                     Walking around their home - to bathroom, kitchen, living room, etc. - provide
                     information on distance walked, speed and balance

         The patient fil·es reviewed by the DHHS-OIG spanned over a three year time period, with the first
files being ovef five years old from the date of the Draft Report. It is important to recognize that the type
and amount of information documented in the face:-to-face evaluatron in 2006 through 2008 to support the
medical need for a power wheelchair may be significantly different than the type of information
documented in 2011. The revie'.'J must be based upon the requirements and expectations at the time the
document was made and cannot be based upon the requirements and expectations of today,

         In June of 2006, the power wheelchair requirements were in their infancy, with little experience
and understanding by any of the parties, including the physicians, providers and eMS itself. Over the
next five years, CMS further developed and revised the policies, providing the supplier community with
more education and instruction on how the policies we re to be implemented Thus, the suppliers did not
have the same knowledge and experience in 2006 through 2008 that they possesses today.

         The most fundamental change from the beginnings of the power wheelchair policy to today is the
expectation that the phYSician's opinion or medical judgment must be supported by findings from
objective tests in 2006, 2007, and 2008 the Local Coverage Determination did not reference to, or
require that objective data be included in the face -to-face report. The reference to, and requirement
of, including objective data was not added to the Local Coverage Determination until January 1.
2009, when the local Coverage Determination was revised to state that the faoe-to-face evaluation
should "contain as must objective data as possible:'

        likewise, in 2006 through 2008, the Local Coverage Determination suggests that physicians
include diSCUSSion on the "impairment of strength, rang e or motion; sensation or coordination." The local
Coverage Determination did not mention or reference a requirement that specific strength testing
measurements should be included in the face-ta-face report. The Local Coverage Determination was not
revised until January 1, 2009, to suggest that the physidan inciude "arm and I.eg strength and range of
motioo." The cMnge in wording in the Local Coverage Determination further demonstrates the need
today for objective data such as strength measurements as opposed to 2006 through 2008, when the
Local Coverage Determination only referred to a discussion or description of strength problems.

        While the baslc elements to establish the medical necessity for a power wheelchair have
remained consistent f rom June i, 2006 through today, it is important to note that the way in which the
physician has been expected to document and defend his or her opinion ofthe patient's medical need for
the power wheelchair has evolved. A reviewer must apply the standards that eXisted at that time, not the
standards that exist today,

         As HIe diSCUssion below will demonstrate, the claims deemed to be improperly paid in the Draft
Report for iack of supporting documentation did indude evidence of the evaluatjon completed by the
physician . The reports all included information explaining why the physiCian determined that the patient
qualified for the power wheelchair, and thus had the necessary supporting documentation, The eleven
claims therefore should remain paid.
                                                                                                            Page 22 of28

                                                                                   Sheri L. Fulcher
                                                                                   November 30, 2011
                                                                                   Page 22



                         b)       Individual Claims

                                  (1)

        _             was evaluated on tvvo separate occasions for his mobility examination; once by his
physician and once by a physical therapist. The m edical record shows t h a t _ suffers from botrl
rheum atoid arthritis as well as osteoarthritis, which have caused significant decreases in his strength as
well as severe pain with movement _                  is further compromised from the effects of chronic
obstructive pulmonary disease and diabetes with neuropathy. His circular problems were so severe that
he had to undergo an above the knee amputation on his left leg, which combined with the fact that his
right ankle was fused during ch ildhood, made ambulating with a prosthesis nearly impossible.

         The mobility examination included objective inform<;itlon supporting _              need for a
power wheelchair. For example, the mobility examination documented that he had developed decreasing
streng th in his right lOWer extremity, ranging from 3+/5 to 4+/5, leading the physical therapist to conclude
tha t _ had a deficit of 93% in his lower extremity function.

         Likewise, his upper extremity function was evaluated w ith objective findings. _               upper
extremity strength is decreased significantty in his right shOUlder to 3+/5, and is decreased in his left
shoulder to 4/5 , He also suffers from decreased range of motion in his shoulders and decreased grip
strength in both hands. And finally, he suffers from significant pain in his shoulders that rCln ges from 3/ 10
(best) to 9/10 (worst), which is aggravated by attempting to propel a manual wheelchair. Based upon
these objective           the physical therapist found _ to have an 8S°/.1 deficit tr1 his upper
extremity function.

          The examination included a description of what the physical therapist observed when watching
_             walk and propel a m anual wheelchair. _             was observed leaning on the waiker with
his bilateral upper extremities taking most of the stress of hiS weight, and pLacing some limited weight on
his rig ht tower extremity , _         walked a total of ten feel with the walker, which took him five
minutes to complete. He also required the assistance of a caregiver during th is distance due his poor
dynamic standing balance.

         In the clinica! setting, _        could only independently propel his m anuai wheelchair less
than 100 reet, which took him five minutes to complete. His average speed was therefore 0.10 mis,
w hich is significantly below the average speed of a manual wheelChair user of 0, 79 m/s.

        Based upon these findings , the physician determined th a t _ had a mobility limitation
impairing his MRAOLs, namely that he could not complete MRADLS within a rea sonable time frame.
Additionally, the physician determined t h a t _ could not resolve his mobility limitations with a




-
cane, walker, manual wheelchair or scooter. Therefore, he prescribed a power wheelchair for.




        _
                                  (2)

                    was personally evaluated by her physician for a pdwer wheelchair. She was found to
be suffering from Significant weakness, lack of endurance, and general debility due to the combined




                    Office of Inspector General Note - The deleted text has been
                    redacted because it contains personally identifiable information.
                                                                                                                   Page 23 of28
                                                                                          Sheri l. Fulcher
                                                                                          November 30, 2011
                                                                                          Page 23




effects of degenerative disc disease, osteoarthritis and congestive heart failure. She had been suffering
from significant pain as well as shortness of breatl"\, which left her at the mercy of her caregivers.

         During the examination, _            was not able to walk on her own for any distance, even with
the assistance of a walker- She was noted to have had previous fall s, resu lting In a fractured wrist and
elbow. Tile phYSician stated t t l a t _ did not have the strength in her lower extremities, and had
Significant pain in her back and hips from the degenerative disc disease and osteoarthritis that prevented
her from ambulating.

        _           was described by her physician as having extremely weakened upper extremity
strength . She no longer hi3d enough strength to pOSition herselfand shift her weight throughout the day,
leading to the presence of decubitus ulcers . She also suffers from congestive heart faiiure and
hypotension, both of Which had caused her to have extremely decreased endurancR She became short
of breath with any attempts at activity.

         The physician determined t h a t _ was completely prevented from performing any of her
MRADLs independently. She could no longer get to her krtchen for meal preparation or her bedroom or
bathroom for grooming. She required the assistance of a caregiver for all of her daiiy activities and could
not resolve these problems with B cane, walker or manual wheelchair. Consequently, the medica! record
included supporting information 8xpiaining how the physiCian determined t h a t _ qualified for a
power wheelchair.

                                    (3)      _ _


                       is a ninety-four year old fem ale who suffers from degenerative joint disease that
has caused significant weakness and debility, as well as significant pain in her joints. She was evaluated
by both a physician and a physical therapist. providing ample supportive information to baSe the medical
need for the power wheelchair.

          For exam pte,                  bilateral lower extremity strength w as tested and measured al only
3+/5. Moreover, she was found to have poor endurance , leading to the need for assistance with her
activities and ambulation throughout her home. She was documented as on ly being able to walk a
maximum of fifteen feet even with the assistance of a ro!Hng walker. Even at such a short distance she
required frequent fest breaks, some lasting up to five minutes . Her knees become weaker and more
painful as she walked, resulted in a history of faUs and placing her at a heightened risk of future falls.

         Thus, the report included supportive information to demonstrate                             cannot walk
function distances. nor can she walk safely around her home within a r;o:,,,,,,,,,,,,,,,I<:>

        Her upper extremity strength was tested as 3+/5, demonstrating that she does not have the ability
to propel herself in the manual wheelchair. Upon assessment, she was not able to propel the manual
wheelchair for any distance due to her lack of strength and endUrance.

         The report of her mObility exam ination therefore inclUded supporting documentation showing the
reasons why                    could not use a cane, walker or manual wheelchair. The report
demonstrated       medical necessity of power wheelchair                       by including information on
her limitations as weI! as attempts to use other assistive devices.



                     Office ofInspector General Note - The deleted text has been
                     redacted because it contains personally identifiable information.
                                                                                                            Page 24 of28
                                                                                 Sheri L Fulcher
                                                                                 November 30, 2011
                                                                                 Page 24



                                 (4)     _

        _          was evaluated one two separate occasions for his need for a power wheelchair, once
by his physician and once by a physical therapist. The records of these two examinations include
detailed information supporting the need for the power wheelchair.

        _         has significantly decreased fower extremity strength of 2/5. He also has fair tone in
both lower extremities and has had a history of his knees buckling and giving way during attempts at
walking. He is unsteady and requires moderate to maximum assistance of a caregiver for all ambulation
and trans.fers

       _         also has severe endurance limitations, as he uses three liters of supplemental oxygen.
He becomes short of breath 'with limited exertion, limiting his warking to ten to fifteen feet maximum. Even
though he only walked ten to fifteen feet, he needed rest breaks during this walk because he became too
short of breath.

         In addition, _         has frozen shoulder syndrome, with only 30% active range of motion in hiS
left shou!deL His left shoulder strength is 1/5 and his remaining left upper extremity and right upper
extremity strength is limited to 3/5.

         Upo n examination , _         was not able to independently propel the manual wheelchair for any
distance, and was noted to require a caregiver to push him at all Umes when using a manual Wheelchair
Furthermore, he does not have the endurance to propel his body in a manual wheelchair, as he becomes
short of breath with minima! exertfon, evidenced by his need for continuous use of supplemental oxygen
at three titers per minute . Consequently, _         is not able to use a manua! wheelchair to resolve his
mobmty limita!ion~

        The physical therapist documented t h a t _ was compl.etely prevented from independently
performing any of the MRADLs, including meal preparation, tolleling, bathing and dressing/grooming
himself. He required the assistance of a caregiver to perform any of the$e activities. Furthermore, the
mobHity examination included objective findings as to w h y _ could not use a cane , walker,
manual Wheelchair or scooter to resolve his mobility limitations. Consequently, the mobility examinations
appropriately supported and documented his need for a power wheelchair.

                                 (5)     _

        _          suffers from chronic obstructive pulmonary disease causing her to be oxygen
dependent, congestive heart failure and degenerative disc disease. The report of her mobility examination
includes objective facts supporting her need for the power wheelchair.

          _         was observed becoming short of breath and fatigued when she ambuiating only twenty
feet After ambulation her oxyge n leve! decreased to 84% while wearing oxygen at four liters per minute
Furthermore, she has a history of falls due to her unsteady gait which is caused in part due to her limited
range of motion in her lower extremities. She is limited to 19° of flexion on the right and 18" of flexion on
the left, with normal range of flexion being 0-130°.




                   Office ofInspector General Note - The deleted text has been
                   redacted because it contains personally identifiable information.
                                                                                                         Page 25 of28
                                                                                 Sheri L F uleher
                                                                                 November 30, 2011
                                                                                 Page 25



        _          is unable to propel a manual wheelchair any distance with her upper extremities
because the pain is too severe. She relies on her lower extremities to propel the manual wheelchair.
When using her feet to move the manual wheelchair, she still requ ired a rest break after only ten feel due
to shortness of breath, and increased pain (8/10) in bilateral knees. Her oxygen level also decreased to
86% when pushing the manual wheelchair with her feet.

        The mobitityexamination demonstrated th rough numerous objective findings that _          does
not have the upper and lower extremity function to use a cane, walker, manual wheelchair or scooter to
safely and timely ambulate within her home. The supportIng documentation provided with this claim
demonstrates t h a t _ has a medica! need for a power wheelchair in order to independently
complete her MRADLs.

                                 (6)

         _             medical history includes chronic obstructive pulmonary disease and congestive heart
failure, causing her to have peripheral edema and being oxygen dependent. Her cardio-respiratory status
is further compromised by the fact that she is morbidly obese , weighing 407 lbs. She suffers from
weakness in her lower extremities and hands, as w eH as significant shortness of breath.

        _            medical conditions have prevented her from being able to functionaliy ambulate.
She can only walk ten feet and then needs to take a rest. She becomes short of breath as a result of her
severe lung disease, coupled with knee pain and w eakness caused in part from her obesity. Her need for
continua! rest breaks every ten feet prevents her from be ing able to complete her MRADLS in a timely
manner.

        _             mobility examination demonstrates that a manual wheelchair cannot resolve her
mobility limitations. During the examination , she propellc,j a manual wheelchair for five feet before
needing to rest _            experienced numbness in her hands from the peripheral neuropathy, and
decreased grip strength as 'lten as progressive dyspnea. She cannot use a manual wheelchair to
complete her MRADLs within a timely manner.

        _              physician described how her medical conditions and the associated symptoms of
those conditions l im1ted her ability to functionally am bulate Within her home. The physician also
described Whyalternalive assistive devices such as a cane, walker, manual wheelchair or scooter would
not reso!ve _ mobmty limitations. Therefore, the repo rt. of the face-to-face examination does
include supportive docUmentation and information to find that the power wheelchair is me-dicaHy
necessary f o r _

                                 (1)     _

        _         suffers from sig nificant shortness of breath and wheezing secondary to severe chroniC
obstructive pulmonary disease and chronic respiratory failure.

        _        does not have tlJe respiratory reserves to. enable h1m to ambulate in a safe and timely
manner. He becomes significantly short of breath after walking only thirty feet. He has decreased
strength and endurance, as well as paIn in his legs that force him to take rest breaks after such short




                   Office of Inspector General Note - The deleted text has been
                   redacted because it contains personally identifiable information.
                                                                                                          Page 26 of28
                                                                                   Sheri L Fulcher
                                                                                   November 30, 2011
                                                                                   Page 26



distances. Neither a cane nor walker assist him in walking any further thah thirty feet, or decrease the
amount of rest breaks necessary when walking .

       _         also does not have the enduran ce or lung capacity to independently propel a manual
wheelchair because tie becomes too short of breath to use a manual wheelchair.

       The mobility examination therefore demonstrated that                  severe chronic obstructive
pulmonary disease and chronic respiratory failure                       from being able to ambulate around
his home with any other type of assistive device, requiring the use   or a power wheelchair.
                                  (8;     _

        _         suffers from hypoxia secondary to chronic obstructive pu!monary disease and cor
pulmonale. His breathing problems have increased, causing profound shortness of breath with just
minimal exertion. He requires the use of two to three liters of supplemental oxygen, twenty-four hours a
day. His problems with breathing have progressed to where he becomes extremely short of breath with
any activity and must take numerous rest breaks when attempting to perform normal, dally activities.

         As the mobility examination discusses, _          is only' able to walk thirty feet prior to stoppi ng
and taking a rest due to significant shortness oibreath. He can walk a maximum of 120 feet, but requires
four rest breaks to go the entire distance. His shortness of breath quickly causes fatig ue and weakness,
leading to a risk of faUs.

          The continuous movement of walking exacerbates his severe chronic obstructi ve pulmonary
disease, causing him to become too short of breath to continue walking . Neither a cane nor a walker
relieve s his problems, as the mere act of walking causes his hypoxia-related symptoms.

       According to his physician, _           does not have the tung capacity to self propel a manual
wheelchair. T he ph ysician found that any attem pt to propel a manuar wheelchair would be too stressful
o n _ due to his severe lung condition and severe shortness of breath with minimal exertion.

         The mobility examination provided supporting information regarding _           mobillty
iimitations. The documentation provides the required details for supporting the physician's determination
that _         requires the use of a power wheelchair in order to safely and timely complete his MRADLs.

                                  (9)     _


       _          suffers from a litany of medica! conditions that have left him unable to independently
move throughout his home to complete his MRADLs. For instance, _                . medical history includes
end stage renal disease, left lower extremity ampLltation, myopathy, insulin dependent diabetes,
hypertenSion and peripheral vascular disease.

                    is not able to use a cane Of walker for more than a few feet without stopping to rest
                         has suffered falls in the past because he does not have adequate balance when
using his                  therefore is l.msCife with either a cane or walker. Moreover, he has decreased
upper extrem ity strength, making it difficult for him to use his arms to compensate for the lack of balance
he has when using the prosthetic.



                   Office of Inspector General Note - The deleted text has been
                   redacted because it contains personally identifiable information.
                                                                                                          Page 27 of28
                                                                                  Sheri L Fulcher
                                                                                  November 30, 2011
                                                                                  Page 27




       The lack of upper extremity strength and the loss of endurance prevent_ from
independently using a manual wheelchaiL

         The mobility exami nation provided explanation as to why the physician believed_ could
not use a cane, walker, manual wheelchair or scooter to resolve his mobility limitations. Ttl€: report further
described _           inability to complete his MRADls without an appropriate assistive device. Thus, the
mobility examination provided the necessary supportive documentation to determine the medical
necessity of the power wheelchair.

                                 (10)    _

       _            suffers from end stage renal disease and diabetes, which have left her dependent
upon caregivers for all activities. _        has diminished strength and endurance that prevent her
from being independent within her home,

        _           has attempted to use a cane and walker in the past, but has not been able to do so
safely, She has suffered from numerous faHs resulting in fractures to her collarbone and ankle. She has
poor balance, decreased upper extremity strength and poor postural position ing, which an combine to
make her an extremely unsafe ambulatory. She requires maximum assistance of a caregiver to go from
the bedroom to the bathroom

        She is likewise limited in her ability to use a manual wheelchaIr. Upon examination, she can only
independently propel a manuai wheelchair for five to seven feet before stopping due to decreased upper
extremity strength and poor endura nce.

        The mobility examination described a veri frail, weak woman who had suffered Injury due to prior
attempts at walking . The exam ination included the detail supporting the physician'S decision to prescribe
a power wheelchair.

                                  (ii)    _

         _             medical history includes Parkinson's disease, diabetes and dyspnea with minimal
activities. She is primarily limited in her ambulatiOn due to decreased endurance and a safety concern
from tack of balance caused by the Parkinson's disease.

        _          is abfe to walk approximately Nventy teet prior to stopping to rest due to shortness of
breath. Her lack of endurance and shortness of breath cause her to be unsteady and have a laCK of
balance, leading to a risk of falls. This risk is heightened by the fact that she has a history of falling

        The physician's mobillty examination is corroborated by a physicaJ therapy evaluation Where.
_      walked fifteen feet and had to stop due to shortness of breath. Her heart rate increased
dramatically from 72 to 120 beats per minute, as did her respiration rate from fifteen to twenty-five. Her
oxygen saturation decreased from 96% to 88% after only fifteen feet. The physiological changes noted in
lhe corroborating documentation support the phYSician 's statement t h a t _ becomes dyspnic with
minima! activity.




                   Office of Inspector General Note - The deleted text has been
                   redacted because it contains personally identifiable information,
                                                                                                         Page 28 of28
                                                                                Sheri L Fulcher
                                                                                November 30, 2011
                                                                                Page 28



       Moreover, the physical therapist corroborated the physician's finding t h a t _ is unsafe
with ambulation, noting th a t _ has problems with her legs unexpectedly buckling,

         The physician also noted t h a t _ suffers from weakness that prevents safe ambulation
w ith a walker, and prohibits independent use of a m anual wheeichair The physical therapy evaluation
further corroborates this, as _         was found to have decreased strength in all four extremities of 4­
15 and to have decreased bilateral grip strength.

         Consequently , the physician's mobility examination has been corroborated and supported furth er
by additional documentation in the medical record .. As the medical records demonstrate, _
cannot walk functional distances in a safe manner with a cane or walker, She also cannot use a manual
wheelchair or scooter, and therefore is an appropriate candidate for a power wheelchair,

                                                       *   .'

         Marquis appreciates the efforts of, and the opportunity to dialogue with, HHS-OtG over the course
of the aud it, has learned th rough the exchange of ideas and is more committed than ever to furnishing
services to Medicare Part B ben eficiaries in a prompt, curteous and ethical manner. That said , Marquis
respectfully submits that for the reasons set forth in detail above , it has not received any overpayments
from Medicare. As a matter of law. 33 of the claims at issue are time barred Moreover, there is no good
cause to support the re-opening and recoupment of the remaining ten claims.

      Both Marquis representatives and the undersigned counsel wm make themselves avaiiabie to
HHS-OIG to a nSVier any questions or address any concerns with respect to an y matter raised above

        We thank yo u in advance for your consideration of ou r response to the Draft Response.

                                                  Sincerely,




                                                  Gadl Weinreich
                                                  SNR Denton US lL P




                   Office oflnspector General Note - The deleted text has been
                   redacted because it contains personally identifiable information.
